   United States Department of Agriculture
   Office of Inspector General




Fiscal Year 2011 Farm Service Agency
Farm Assistance Program Payments




                                             Audit Report 03401-0001-11
                                             May 2012
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250




DATE:          May 14, 2012

AUDIT
NUMBER:        03401-0001-11

TO:            Bruce E. Nelson
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Fiscal Year 2011 Farm Service Agency Farm Assistance Program Payments


This report presents the results of the subject audit. Your written response to the draft report,
dated April 25, 2012, is included in its entirety at the end of the report. Excerpts from your
response and the Office of Inspector General’s position are incorporated in the relevant sections
of the report. Based on your response, we were able to accept management decision on the only
recommendation in the report, and no further response to us is necessary.

In accordance with Departmental Regulation 1720-1, final action is required to be taken within
1 year of management decision to prevent being listed in the Department’s annual Performance
and Accountability Report. Please follow your internal agency procedures in forwarding final
action correspondence to the Office of the Chief Financial Officer, Director, Planning and
Accountability Division.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................3
Section 1: Fiscal Year 2011 Improper Payments .................................................5
Finding 1: FSA Made Improper Farm Assistance Program Payments ............5
         Recommendation 1 ........................................................................................6
Scope and Methodology...........................................................................................8
Abbreviations ...........................................................................................................9
Exhibit A: Summary of Monetary Results ..........................................................10
Exhibit B: Statistical Plan .....................................................................................11
Agency’s Response .................................................................................................13
Fiscal Year 2011 Farm Service Agency Farm Assistance Program
Payments

Executive Summary

This report presents the results of our review of payments made by the Farm Service
Agency (FSA) during fiscal year 2011, through its various farm assistance programs. The work
was performed to support our audit of the Department of Agriculture’s consolidated financial
statements for fiscal years 2011 and 2010.1 That report notes that the Office of Inspector
General (OIG) identified improper payments2 that would be reported separately to FSA.

We sampled FSA program payments for fiscal year 2011 from a universe of $2.064 billion. We
reviewed 122 payments, totaling $5.2 million,3 and identified errors in 14 of these payments.
These errors occurred primarily because FSA did not have effective internal controls over the
manual Supplemental Revenue Assistance Payments (SURE) Program payment calculation
process. Documentation for the SURE Program errors included a second-party reviewer initial
and date, indicating that a second-party review had been completed; however, the second-party
reviews conducted by FSA personnel did not detect the data input errors. OIG and FSA have
agreed that these 14 errors resulted in improper payments of $54,408. Based on the results of
these 122 sampled payments, we estimated the total dollars improperly paid were about
$28 million.

In fiscal year 2010,4 we performed similar work in recalculating FSA program payments selected
statistically through FSA data extracts and we identified 18 improper payments, totaling
$61,714. Last year, we recommended that FSA develop and implement effective internal
controls over the manual SURE Program payment calculation process to prevent the continuance
of the errors identified. During our fiscal year 2011 audit, we noted that FSA made
enhancements to the SURE workbook to automatically compute the gross production total for
the Risk Management Agency indemnity.

While we noted a reduction in the number and dollar amounts of improper payments during our
fiscal year 2011 audit, controls should be further strengthened to prevent future occurrences of
the types of errors noted in this report.




1
  Audit Report 50401-0001-11, Department of Agriculture’s Consolidated Financial Statements for
Fiscal Years 2011 and 2010, November 2011.
2
  An improper payment is any payment that should not have been made or that was made in an incorrect amount
under statutory, contractual, administrative, or other legally applicable requirements. (Improper Payments
Information Act of 2002, Public Law 107-300, November 26, 2002).
3
  We statistically selected 100 records that summarized data on 122 payments. From each extract, records were
selected with probabilities proportional to their sizes.
4
  Audit Report 03024-0001-11, Farm Service Agency, Farm Assistance Program Payments for Fiscal Year 2010,
June 2011.

                                                                       AUDIT REPORT 03401-0001-11               1
Recommendation Summary
FSA should implement more effective second-party reviews over the manual calculation of
SURE Program payments.

Agency Response
In its written response, dated April 25, 2012, FSA stated that it issued a notice to State and
county offices stressing the importance of second party reviews and identifying tools available to
help identify deficiencies during the review. FSA also discussed the audit and findings, along
with the notice, at a meeting with all State offices. The written response is included in its
entirety at the end of the report.

OIG Position
Based on FSA’s written response, OIG accepts management decision on the recommendation.




2    AUDIT REPORT 03401-0001-11
Background and Objectives

Background
The Farm Service Agency’s (FSA) mission is to equitably serve all farmers, ranchers, and
agricultural partners through the delivery of effective, efficient agricultural programs for all
Americans. FSA provides assistance for natural disaster losses resulting from drought, flood,
fire, freeze, tornadoes, pest infestation, and other calamities. These programs include the
Supplemental Revenue Assistance Payments (SURE) program; Livestock Forage Disaster
Program (LFP); Emergency Conservation Program (ECP); Livestock Indemnity Program (LIP);
Crop Assistance Program (CAP); Emergency Assistance for Livestock, Honey Bees, and Farm-
Raised Fish (ELAP); and Trade Adjustment Assistance for Farmers (TAAF).

The SURE program authorizes the Secretary of Agriculture to provide agricultural disaster
assistance to producers who suffered qualifying crop production losses, crop quality losses, or
both, due to disaster(s), adverse weather, or other environmental conditions, beginning with the
2008 crop year and ending with losses incurred on or before September 30, 2011. The inclusion
of a permanent crop disaster program in the Food, Conservation, and Energy Act of 2008 (2008
Farm Bill) represented a change from the ad hoc crop disaster programs that, up until the 2008
Farm Bill, had served as Congress’ primary instrument to disburse crop disaster assistance.

The American Recovery and Reinvestment Act of 2009 (ARRA) added and amended provisions
of the 2008 Farm Bill related to the SURE program for the 2008 crop year. ARRA increased the
assistance for producers who suffered 2008 crop losses, as well as provided an additional
opportunity to participate in the SURE program through “buy-in” provisions.

The 2008 Farm Bill authorized LFP to provide compensation to eligible livestock producers that
suffered grazing losses for covered livestock on land that is native or improved pastureland with
permanent vegetative cover, or is planted specifically for grazing. LFP also provides
compensation to eligible livestock producers that have suffered grazing losses on rangeland
managed by a Federal agency, if the eligible livestock producer is prohibited by the Federal
agency from grazing the normal permitted livestock on the managed rangeland due to a
qualifying fire.

CAP authorizes the Secretary of Agriculture to provide disaster aid to producers in specified
counties whose rice, upland cotton, soybean, and sweet potato production was affected by
excessive moisture and related conditions that occurred in 2009. Under Section 32 of the
Agricultural Adjustment Act of August 24, 1935, FSA established per acre payment rates for
these crops. Through CAP, FSA provides this emergency assistance to help re-establish the
purchasing power of eligible producers who suffered a 5 percent or greater loss of an eligible
crop on their crop acreage and were located in a primary county for which a Secretarial disaster
designation was issued, based on excessive moisture and related conditions for the 2009 crop
year.




                                                             AUDIT REPORT 03401-0001-11            3
Objectives
The objective of our review was to determine if fiscal year 2011 FSA program payments were
properly recorded in the accounting system and adequately supported.




4    AUDIT REPORT 03401-0001-11
Section 1: Fiscal Year 2011 Improper Payments

Finding 1: FSA Made Improper Farm Assistance Program Payments

We sampled FSA program payments for fiscal year 2011 from a universe of $2.064 billion. We
reviewed 122 payments, totaling $5.2 million,5 and identified errors in 14 of these payments.
These errors occurred primarily because FSA did not have effective internal controls over the
manual SURE Program payment calculation process. Documentation for the SURE Program
errors included a second-party reviewer initial and date, indicating that a second-party review
had been completed; however, the second-party reviews conducted by FSA personnel did not
detect the data input errors. The Office of Inspector General (OIG) and FSA have agreed that
these 14 errors resulted in improper payments of $54,408. FSA has initiated or completed
appropriate corrective actions for all errors. Based on the results of these 122 sampled payments,
we estimated the total dollars improperly paid were about $28 million. We are 95 percent
confident that the improper payments did not exceed $102 million.

In our review, we found that 10 of the 146 errors represented SURE Program payments. Overall,
our statistical sample included 62 SURE Program payments from a total SURE Program
payment universe of about $1.186 billion. We calculated a total of $54,238 improper payments
for the 10 SURE Program errors. We found the county offices made errors when inputting the
data into the manual workbook used to calculate the SURE Program payments. Specifically,
these errors included incorrectly omitting appropriate crop indemnity information; entering the
incorrect Production to Count; entering the incorrect Direct and Counter-Cyclical Program direct
payment amounts, as well as the National Average Market Price amounts; entering the incorrect
acres; not including all units; entering the incorrect Stage Code; entering the incorrect inputted
Quality Adjustment factors; and entering the incorrect County Office Committee Adjusted
Production.

In addition to the improper payments mentioned above, we identified other exceptions to
SURE Program payments made during our review. We determined one county office failed to
include all Risk Management Agency (RMA) indemnities in the SURE workbook for a multi-
county producer. Also, the counter-cyclical yields for this same county were incorrectly added.
Additionally, OIG determined that for this county office and a second one, the county offices
entered an incorrect Production to Count for a wheat and corn unit. Together these errors caused
a difference of $32,941. However, the input errors did not affect the actual payment to the
producer, due to payment limitations. Therefore, these items were not included in our count of
errors.




5
  We statistically selected 100 records that summarized data on 122 payments. From each extract, records were
selected with probabilities proportional to their sizes.
6
  The other four errors consisted of three LFP payments and one CAP payment. For the LFP improper payments,
we found the county offices used an incorrect carrying capacity rate when entering data for the payment. For the
CAP improper payment, we found the county office used incorrect acres and share amount when computing the
payment. OIG and FSA have agreed that these four errors resulted in improper payments totaling $170.

                                                                        AUDIT REPORT 03401-0001-11                 5
According to the FSA Handbook 1-SURE,7 the SURE “Interim Workbook” process is a
completely manual process that includes a series of Excel worksheets used to complete a manual
calculation of the SURE Program payment. The handbook further states the SURE “Interim
Workbook” does not have the capability to check or reference other systems, such as the Service
Center Information Management System, Farm Records, or Web Subsidiary. These other
systems will need to be checked by the user to ensure that the producer is eligible for the
SURE Program. OIG also identified an inconsistency in the 1-SURE Handbook regarding the
instructions on which producer share to use in the SURE Program calculation. Specifically, we
found there were inconsistencies in the 1-SURE Handbook between paragraphs 515-E/575-E and
exhibit 4, page 2. In one reference, the handbook directed county offices to use the producer
share from the form FSA-578 on the SURE Information Report (SIR). In the other reference, the
handbook directed county offices to use the producer share from the RMA data information on
the SIR. FSA and OIG had a meeting on this matter during our review and FSA officials agreed
that the 1-SURE Handbook warranted an amendment to clarify to the county offices where the
producer share should be obtained from the SIR. FSA informed OIG that the amendment would
not be retroactive. On October 13, 2011, FSA provided proposed language to amend the
1-SURE Handbook and clarify the inconsistent language in the handbook regarding where a
producer’s share should be extracted from in order to calculate a payment. OIG agreed that the
proposed language for the amendment was sufficient in addressing our concerns.

In fiscal year 2010,8 we performed similar work in recalculating FSA program payments selected
statistically through FSA data extracts, and we identified 18 improper payments totaling
$61,714. Last year, we recommended that FSA develop and implement effective internal
controls over the manual SURE Program payment calculation process to prevent the continuance
of the errors identified. During our fiscal year 2011 audit, we noted that FSA made
enhancements to the SURE workbook to automatically compute the gross production total for
the RMA indemnity.

While we noted a reduction in the number and dollar amounts of improper payments during our
fiscal year 2011 audit, controls should be further strengthened to prevent future occurrences of
the types of errors noted in this report.

Recommendation 1
We recommend that FSA officials implement more effective second party reviews over the
manual calculation of SURE Program payments.

Agency Response
To address the recommendation, FSA issued a notice to State and county offices stressing the
importance of second party reviews and identifying tools available to help identify deficiencies



7
 1-SURE Handbook, “Amendment 19,” January 13, 2012.
8
 Audit Report 03024-0001-11, Farm Service Agency, Farm Assistance Program Payments for Fiscal Year 2010,
June 2011.

6     AUDIT REPORT 03401-0001-11
during the review. FSA also discussed the audit and findings, along with the notice, at a meeting
with all State offices.

OIG Position
We accept FSA’s management decision on this recommendation.




                                                             AUDIT REPORT 03401-0001-11        7
Scope and Methodology
We obtained the universe of payments from FSA and statistically selected 100 records that
summarized 122 payments made from October 1, 2010, through September 30, 2011. The four
data extracts provided by FSA included program payments for all of fiscal year 2011 and
represented seven programs,9 totaling $2.064 billion. Details on each data extract are as follows:


      ·    The first extract included payments of about $1.269 billion, made from October 1, 2010,
           through March 31, 2011, from which we statistically selected 50 records that summarized
           66 payments.
      ·    The second extract included payments of about $403 million, made from April 1, 2011,
           through June 30, 2011, from which we statistically selected 25 records that summarized
           27 payments.
      ·    The third extract included payments of about $302 million, made from July 1, 2011,
           through August 31, 2011, from which we statistically selected 17 records that
           summarized 21 payments.
      ·    The fourth extract included payments of about $90 million, made in September 2011,
           from which we statistically selected 8 records that summarized 8 payments.

We obtained supporting documentation, such as applications, workbooks, invoices, receipts, and
monthly production records for each sample and recalculated each payment. We discussed the
samples with FSA officials as we worked to obtain concurrence on exceptions noted.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




9
    The seven programs were ECP, SURE, LFP, LIP, CAP, ELAP, and TAAF.

8         AUDIT REPORT 03401-0001-11
Abbreviations
ARRA ......................... American Recovery and Reinvestment Act of 2009
CAP............................. Crop Assistance Program
ECP ............................. Emergency Conservation Program
ELAP........................... Emergency Assistance for Livestock, Honey Bees, and Farm-Raised Fish
FSA ............................. Farm Service Agency
LFP.............................. Livestock Forage Disaster Program
LIP............................... Livestock Indemnity Program
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
RMA ........................... Risk Management Agency
SIR .............................. SURE Information Report
SURE .......................... Supplemental Revenue Assistance Payments Program
TAAF .......................... Trade Adjustment Assistance for Farmers




                                                               AUDIT REPORT 03401-0001-11         9
Exhibit A: Summary of Monetary Results
Finding     Recommendation            Description               Amount                Category
                                  FSA made Improper
                                                                                    Questioned
                                    Farm Assistance
     1               1                                       $28.1 million        Costs/Loans, No
                                   Program Payments
                                                                                     Recovery
                                  in Fiscal Year 2011

The table above summarizes the monetary results by finding and includes a description, dollar
amount, and the category of errors found. The table illustrates Finding 1 has $28.1 million of
monetary results based on statistical projections of improper payments.




10       AUDIT REPORT 03401-0001-11
Exhibit B: Statistical Plan
Objective

This sample was designed to determine if fiscal year 2011 Farm Service Agency (FSA) program
payments were properly recorded in the accounting system and adequately supported. We
performed this work to provide coverage for our Department of Agriculture’s Consolidated
Financial Statement audit by determining whether the financial statements were materially
affected by the net impact of improper payments made by FSA, through its various farm
assistance programs. A second objective was to estimate the corresponding “gross total of both
over and under payments (i.e., not the net of over and under payments)” consistent with the
Office of Management and Budget (OMB) Circular A-123 Appendix C, Part I.A.9. Exhibit B
focuses primarily on the second objective.

Audit Universe

Our universe consisted of $2.064 billion of FSA payments made during fiscal year 2011. To
complete this work prior to OMB’s deadline for annual financial statement audits, we reviewed
these records as they became available over the following four periods:

     1.   Six months ended March 31, 2011
     2.   Three months ended June 30, 2011
     3.   Two months ended August 31, 2011
     4.   One month ended September 30, 2011

Sample Design

Consistent with Financial Audit Manual §480.21,10 since the prior year’s improper payment rate
was not high, the Office of Inspector General (OIG) employed monetary-unit sampling, also
known as probability proportional to size sampling.11 Each record’s selection probability was
proportional to the corresponding amount paid relative to that extract’s total payments.
Based on the previous year’s 2.03 percent gross improper payment rate, OIG selected 100
records that summarized data on 122 payments. To spread the audit work evenly over time, the
number of records selected from each of the four extracts was roughly proportional to the time
span of the extract (averaging 8⅓ records per month), resulting in four separate samples of 50,
25, 17, and 8 records. However, because FSA’s payment rates varied significantly over the four
periods, the number of records selected per total dollars paid also differed significantly across the
four samples. Each extract’s “sampling fraction” is the reciprocal of its fixed-length sampling
interval and these sampling intervals varied across the extracts as follows:


10
   Government Accountability Office and the President’s Council on Integrity & Efficiency, Financial Audit
Manual, July 2008.
11
   More specifically, from a random start in each extract, OIG systematically selected the monetary unit that
succeeded the previously selected unit by an amount equal to that extract’s sampling interval. OIG reviewed all
payments summarized in the records associated with the monetary units selected.

                                                                       AUDIT REPORT 03401-0001-11                 11
     Exhibit B: Statistical Plan (continued)

          ·   $25.38 million (= $1.269 billion ÷ 50 records) for 6 months ended March 31, 2011.
          ·   $16.12 million (= $403 million ÷ 25 records) for 3 months ended June 30, 2011.
          ·   $17.76 million (= $302 million ÷ 17 records) for 2 months ended August 31, 2011.
          ·   $11.25 million (= $90 million ÷ 8 records) for September 2011.

     Results

     Based on the sample results, we project about $28.1 million or 1.36 percent of FSA’s
     $2.064 billion farm program assistance payments during fiscal year 2011 were improper. We
     also project a 95 percent chance these improper payments did not exceed $101.8 million, or
     4.93 percent of the total paid.

                              Upper Bound          Raw Data (Improper Payments Observed in Sample)
                  Point       of 95 Percent
                 Estimate      Confidence       6 months          3 months         2 months
 Measure                                                                                          September
               (Projection)      Interval     ended March        ended June      ended August
                                                                                                    2011
                                                31, 2011          30, 2011         31, 2011
                               (One-tail)*
Fraction of
  universe     1.36 percent   4.93 percent    (0.20 percent)   (3.02 percent)    (0.06 percent)   (0 percent)
(or sample)
Value of
                 $28.1           $101.8
improper                                          $5,430          $48,618            $360                 $0
                 million         million
payments
*By definition, total gross improper payments cannot be less than the $54,408 observed in the sample.
items.
     The table above summarizes the results of our statistical sampling of fiscal year 2011 FSA program
     payments for the four sampled periods by value of improper payments (dollar amount) and fraction
     of the universe (percentage). The table also illustrates the point estimate and upper bound of our
     statistical projection using a 95 percent confidence level.




     12       AUDIT REPORT 03401-0001-11
Agency’s Response




           FARM SERVICE AGENCY
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 03401-0001-11   13
United States        DATE:          April 25, 2012
Department of
Agriculture
                     TO:            Director, Farm, Trade, Research and Environment Division
Farm and Foreign                    Office of Inspector General
Agricultural
Services
                     FROM:          Philip Sharp, Director
Farm Service
Agency                              Operations Review and Analysis Staff
Operations Review
and Analysis Staff   SUBJECT:       Responding to Official Draft Report, Fiscal Year 2011 Farm Service
1400 Independence
                                    Agency Farm (FSA) Assistance Program Payments – Audit 03401-0001-11
Ave, SW
Stop 0540
Washington, DC
20250-0540           FSA’s Deputy Administrator for Programs has provided the following information to reach
                     management decision for the subject’s audit recommendation.

                     Recommendation 1

                     We recommend that FSA officials implement more effective second party reviews over
                     the manual calculation of Supplemental Revenue Assistance Payments (SURE) program
                     payments.

                     Agency Response:

                     The OIG summary indentified errors in 14 of the 122 payments reviewed. OIG
                     determined that these errors occurred primarily because FSA did not have effective
                     internal controls over the manual SURE Program payment calculation process. OIG also
                     found that documentation for the SURE Program errors included a second-party reviewer
                     initial and date indicating that a second-party review had been completed; however the
                     second-party reviews conducted by FSA personnel did not detect the data input errors.

                     Corrective action was taken to address the above deficiencies. FSA Notice SURE-25 was
                     issued to State and County offices on April 12, 2012. The notice identified the data input
                     errors found during the audit for the SURE program and also stressed the importance of
                     diligence for second party reviews. It also reiterated the management tools available in
                     FSA Handbook 1-SURE to help identify deficiencies during a review.

                     On April 12, 2012, the audit and findings, along with Notice SURE-25, were discussed
                     during the biweekly DAFP conference call with all State Offices. SURE State Office
                     Program Specialists were responsible for relaying the information to the County Offices.
Informational copies of this report have been distributed to:

Administrator, Farm Service Agency       (2)
      Attn: Director, Operations Review and Analysis Staff

Government Accountability Office              (1)

Office of Management and Budget               (1)

Office of the Chief Financial Officer      (1)
       Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
